February 1, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Business Mail Entry Unit Oversight Reviews – Denver Business
         Mail Entry Unit, Denver, CO (Report Number FF-MA-11-009)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) group’s business mail entry unit (BMEU) testing at the
Denver BMEU, Denver, CO (Project Number 11BR004FF009), performed December 7-
9, 2010. The Denver BMEU is in the Colorado/Wyoming District of the Western Area. At
the conclusion of FY 2011, we will summarize the results for all reviews in reports to
Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission which monitors and manages the Postal Service’s compliance
with SOX. The Postal Service established the FTC to conduct tests of key financial
reporting controls.

We conducted this oversight review in support of the independent public accountant’s
(IPA) reliance on Postal Service management’s testing and overall audit opinions on the
financial statements and internal controls over financial reporting. The IPA relies on the
Postal Service’s internal control testing to support the overall audit opinions.

The overall objective of our review was to evaluate whether FTC properly conducted
and documented their examination of SOX financial reporting controls.

To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from December 2010 through
January 2011 in accordance with the Quality Standards for Inspections.1

1
  These standards were last issued by the President’s Council on Integrity and Efficiency (PCIE) and the Executive
Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978 as
amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.
Fiscal Year 2011 Financial Testing Compliance Business Mail Entry Unit          FF-MA-11-009
 Oversight Reviews – Denver Business Mail Entry Unit – Denver, CO


Conclusion

Based on our review of FTC’s work, we deteremined the FTC analysts properly
conducted and documented their examination of key SOX financial reporting controls.
See Appendix A for the results of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all its
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters. Management agreed not to respond to the interim
reports but will have the opportunity to formally respond to the draft summary report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Juan Gonzalez, audit manager,
at 303-925-7425 or me at 510-285-9024.

-Signed by Linda J. Libician-Welc
ERIFY authenticity with ApproveI

Linda Libician-Welch
Director, Field Financial – West

Attachments

cc:     Douglas G. Germer
        Corporate Audit and Response Management




                                                     2
                                          Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                                                FF-MA-11-009
 Denver Business Mail Entry – Denver, CO



                                                 APPENDIX A: REVIEW RESULTS

       Site Name                                                Denver BMEU
       Finance Number-Unit ID                                   0723580095
       Location Type                                            BMEU
                                                               October 1, 2010 through December 6,
       Scope Period Under Review                               2010
                                                                Business Mail Review Topic 450000
       FTC Review Program Version and Date                     dated 11/24/2010
       FTC Team                                                 West



                                                                                                    Did FTC
                                                                    Did the OIG       Did FTC      adequately
                                                                       have         perform the   document its
                                                  Did FTC have      exceptions/        step in        work
                                                   exceptions/       findings       accordance     performed       Did the OIG agree
                                                   findings in       that FTC           to its       and the        with FTC’s site
FTC Review                  FTC Review Step         this step?       did not?        program?       results?            results?
Step #/ Control #             Description            (Yes/No)        (Yes/No)         (Yes/No)      (Yes/No)            (Yes/No)
450001/104CA163           Mail Check-             No                No              Yes           Yes              Yes
                          In/Receipt
450002/104CA2             Mail Verification       No                No              Yes           Yes              Yes
450003/104CA65            Placarding/Inducti      No                No              Yes           Yes              Yes
                          on
450004/104CA66            End-of-Day              Yes               No              Yes           Yes              Yes
                          Reconciliation
450005/104CA06            SOX Certification       Yes               No              Yes           Yes              Yes
450006/104CA1             Finalizing              Yes               No              Yes           Yes              Yes
                          Postage
                          Statements


                                                                      3
                                                           Restricted Information
